                             OFFICE OF THE INSPECTOR GENERAL
                             CORPORATION FOR NATIONAL AND
                                   COMMUNITY SERVICE




                                PRE-AUDIT SURVEY OF THE
                              CONNECTICUT COMMISSION ON
                            NATIONAL AND COMMUNITY SERVICE

                                   OIG Audit Report Number 0 1-21
                                         October 26,2000




                                               Prepared by:

                                             KPMG LLP
                                          2001 M Street N.W.
                                         Washington, DC 20036

                                 Under CNS OIG MOU # 98-046-5003
                                    With the Department of Labor
                                    DOL Contract # J-9-G-8-0022
                                         Task # B9GOV203




This report was issued to Corporation management on April 4, 2001. Under the laws and regulations
governing audit follow up, the Corporation must make final management decisions on the report's findings
and recommendations no later than October 1, 2001, and complete its corrective actions by April 4, 2002.
Consequently, the reported findings do not necessarily represent the final resolution of the issues presented.
                                                                                            CORPORATION
                                  Office of Inspector General
                        Corporation for National and Community Service                      FOR NATIONAL


                                 Pre-Audit Survey of the
                 Connecticut Commission on National and Community Service
                              OIG Audit Report Number 01-21


Introduction

The Corporation for National and Community Service, pursuant to the authority of the National and
Community Service Act, awards grants and cooperative agreements to state commissions, nonprofit
entities, tribes and territories to assist in the creation of full and part time national and community
service programs. Currently, in accordance with the requirements of the Act, the Corporation awards
approximately two-thirds of its AmeriCorps Staternational funds to state commissions. The state
commissions in turn fund, and are responsible for the oversight of, subgrantees who execute the
programs. Through these subgrantees, AmeriCorps Members perform service to meet educational,
human, environmental, and public safety needs throughout the nation.
Thus, state commissions play an important role in the oversight of AmeriCorps programs and
expenditures. The Corporation has indicated that it intends to give them greater responsibility. However,
the Corporation lacks a management information system that maintains comprehensive information on
its grants including those to state commissions and subgrantees. Moreover, although the Corporation
began state commission administrative reviews in 1999, the Corporation, historically, has not carried
out a comprehensive, risk-based program for grantee financial and programmatic oversight and
monitoring. It is also unlikely that AmeriCorps programs are subject to compliance testing as part of
state-wide audits under the Single Audit Act due to their size relative to other state programs.
Therefore, CNS OIG has initiated a series of pre-audit surveys intended to provide basic information on
the state commissions' operations and funding. The surveys are designed to provide a preliminary
assessment of the commissions' pre-award and grant selection procedures, fiscal administration, and
monitoring of subgrantees (including ArneriCorps Member activities and service hour reporting).
Recommendations for future audit work consider the pre-audit survey results, known audit coverage,
the amount of funding, and other risks. For each survey, we also issue a report to the state commission
and to the Corporation communicating the results and making recommendations for improvement, as
appropriate.
We engaged KPMG LLP to perform the pre-audit survey of the Connecticut Commission on National
and Community Service. Based on the limited procedures performed, KPMG concluded that the
Commission administers an open, competitiveprocess to select national service subgrantees. However,
KPMG described several areas of this process as well as the Commission's fiscal administration and
monitoringprocesses that warrant improvement. Their report includes various recommendations for
corrective actions in the latter areas. Also, based on their preliminary assessments and the nature of
the survey findings, KPMG recommends Corporation follow-up actions to ensure that appropriate
corrective actions are implemented and that OIGperform a full-scope audit of the Commissionfor all
program years.




                                                                                         Inspector General
                                                                                         1201 New York Avenue, NW
                                                                                         Washington, DC 20525
The Commission's and the Corporation's responses are included in this report as Appendices C and D,
respectively. Although the Commission, for the most part, disagreed with the report, it's response
indicates that it has implemented certain of the recommendations. The Corporation's response disagrees
with recommendations to improve the Commission's monitoring procedures and documentation as well
as the recommendation for a full scope audit. As described on pages 4 and 5, KPMG considered the
Commission's comments and made certain revisions to the report.
CNS OIG reviewed the report, with which we concur, and the work papers supporting its conclusions.
We also noted the Corporation's argument against further OIG audit work. We believe it is important
to clarify that CNS OIG intends to perform audit work at most, if not all, of the state commissions over
the next several years and that the purpose of the pre-audit surveys is to gather information to allow CNS
OIG to determine the timing of and the extent of future audit work. In performing our audit work at the
Commission, we will consider the Commission's corrective actions and the Corporation's oversight
efforts. Further, in accordance with OIG policies and OMB Circular A-133, "Audits of States, Local
Governments, and Non-Profit Organizations," we will consider the results of independent financial and
compliance audits performed at the Commission and its subgrantees in determining the nature and scope
of our future audit work.
                                        Pre-Audit Survey of the
                        Connecticut Commission on National and Community Service
                                           Table of Contents



RESULTS IN BRIEF ....................................................................................................................... 1

BACKGROUND ............................................................................................................................. 2

OVERVIEW OF THE CONNECTICUT COMMISSION.............................................................. 3

OBJECTIVES. SCOPE. AND METHODOLOGY ......................................................................... 3

FINDINGS AND RECOMMENDATIONS .................................................................................... 6

APPENDIX A. COMMISSION FUNDING: 1994-95 THROUGH 1999-2000 ......................... A .1

APPENDIX B. DETAILED ENGAGEMENT OBJECTIVES AND
   METHODOLOGY ................................................................................................................ B .1

APPENDIX C. CONNECTICUT COMMISSION ON NATIONAL AND COMMUNITY
  SERVICE RESPONSE .......................................................................................................... C .1

APPENDIX D. CORPORATION RESPONSE ........................................................................... D .1
          2001 M Street, N.W.
          Washington. D.C. 20036




October 26, 2000



Inspector General
Corporation for National and Community Service:

At your request, KPMG LLP (KPMG) performed a pre-audit survey of the Connecticut
Commission on National and Community Service (the Commission). The primary purpose of
this survey was to provide a preliminary assessment of:

   the adequacy of the pre-award selection process;
   the fiscal procedures; and
   the effectiveness of monitoring of its AmeriCorps State subgrantees, including AmeriCorps
   Member activities and service hours, and program accomplishments reporting.

We were also to report on the recommended scope of additional audit procedures to be
performed at the Commission.

Results in Brief

Based on the results of the limited procedures performed, we have made the following
preliminary assessments regarding the Commission's systems for administering its AmeriCorps
grants:

    The Commission administers an open, competitive process to select national service
    subgrantees. However, the Commission could not provide signed conflict of interest
    statements for officials that participated in subgrantee selection processes for all program
    years reviewed. In addition, the Commission could not provide adequate documentation to
    support its evaluation of an applicant's financial management systems (for periods prior to
    program year 1999-2000), and past experience (for all program years reviewed).

    The Commission has developed control policies and procedures to administer the
    Corporation's grant funds. However, the Commission's control policies and procedures to
    ensure the timeliness, accuracy and validity of Commission and Subgrantee Financial Status
    Reports is inadequate.

    The Commission has established controls to evaluate and monitor subgrantees. However,
    the Commission does not have adequate procedures for: (i) obtaining and reviewing
    subgrantees' Office of Management and Budget (OMB) Circular A- 133, Audits of State,
    Local Governments, and Nun-profit Organizations audit reports, and (ii) following up to




1111        KPMG LLP KPMG LLP a U S h t e d l a b l t y ~ a r l n e r s h pI S
            a member of KPMG lnl~rnationala Swss a,socaron
   ensure the timely resolution of identified deficiencies. In addition, the Commission could
   not provide documentation to demonstrate the procedures performed during site v~sitsfor all
   program years reviewed.

The section below entitled Findings and Recommendations describes the weaknesses noted
above in further detail and addresses additional issues noted during the survey.

The Commission forms part of the Department of Higher Education of the State of Connecticut,
and as such, is annually subject to an OMB Circular A-133 audit performed by the Connecticut
State Auditors' Office. However, the Commission's AmeriCorps grant was not identified as a
major program in the audit for the fiscal year ended 1999.

Based on our preliminary assessments, and the nature of the findings identified herein, we
recommend the performance of a full scope audit of the Commission for program years 1994-
1995 through 1999-2000.

Additionally, we recommend that the Corporation follow up with the Commission to determine
that appropriate corrective actions are implemented to address the conditions reported herein,
and that the Corporation consider these conditions in its oversight and monitoring of the
Commission.

Background

The National and Community Service Trust Act of 1993, P.L. 103-82, which amended the
National and Community Service Act of 1990, established the Corporation for National and
Community Service.

The Corporation, pursuant to the authority of the Act, awards grants and cooperative agreements
to State Commissions, nonprofit entities and tribes and territories to assist in the creation of full
and part time national and community service programs. Through these grantees, AmeriCorps
Members perform service to meet the educational, human, environmental, and public safety
needs throughout the nation, especially addressing those needs related to poverty. In return for
this service, eligible Members may receive a living allowance and post service educational
benefits.

Currently, the Corporation awards approximately two-thirds of its AmeriCorps State/National
funds to State Commissions. State Commissions are required to include 15 to 25 voting
Members. Each Commission has a responsibility to develop and communicate a vision and ethic
of service throughout its State.

The Commissions provide AmeriCorps funding to approved applicants for service programs
within their states and are responsible for monitoring these subgrantees' compliance with grant
requirements. The Commissions are also responsible for providing training and technical
assistance to AmeriCorps State and National Direct programs and to the broader network of
service programs in the state. The Commissions are prohibited from directly operating national
service programs.

The Corporation's regulations describe standards for financial management systems that must be
maintained by State Commissions. The standards require, in part, that the State Commissions
m
maintaln internal controls that prov~defor accurate, current, and complete disclosure of the
financial and programmatic results of financially asslsted actlvltles, and provlde effectwe control
and accountablllty for all grant and subgrant cash, real and personal property, and other assets.

Overview of the Connecticut Commission

The Connecticut Commission on National and Community Service, located in Hartford,
Connecticut, has received AmeriCorps grant funds from the Corporation for National and
Community Service since program year 1994-95. The Commission operates as part of the State
of Connecticut's Department of Higher Education (the Department). The Commission has five
employees directly involved with the Commission including an Executive Director, a Finance
Manager, a Program Officer, and two support staff. The Commission's Executive Director
reports directly to the Department's Interim Commissioner.

As part of the Department, the Commission is annually subject to an OMB Circular A- I33 audit
performed by the Connecticut State Auditors' Office.

The Commission provided us with the following information for all program years:

                                                                            Number of
                                                                            Subgrantees
                              Total Corporation         Number of         Subject to A- 133
        Program Year              Funding               Submantees            Audits*




*   Determination is based solely on dollar value of federal awards passed through the
    Commission for each program year. Remaining subgrantees could be subject to an OMB
    Circular A-133 audit if they received additional federal grant funds from other sources.
    Because the Commission does not routinely obtain and review such audit reports as reported
    on page 8, we were unable to verify that applicable subgrantees complied with this audit
    requirement.

Appendix A contains more detailed information on funding received from the Corporation
during program years 1994- 1995 through 1999-2000.

Objectives, Scope, and Methodology

We were engaged by the Office of the Inspector General, Corporation for National and
Community Service, to provide an assessment of the systems and procedures in place at the
Commission for administering its AmeriCorps grants and for monitoring the fiscal activity of
subgrantees. The primary purpose of this pre-audit survey was to provide a preliminary
assessment of:
rn
   the adequacy of the pre-award selection process;
   the fiscal procedures at the Commission; and
   the effectiveness of monitoring of its AmeriCorps State subgrantees, including AmeriCorps
   Member activities and service hours, and program accomplishment reporting.

We were also to report on the recommended scope of additional audit procedures to be
performed at the Commission.

Our survey included the following procedures:

   reviewing applicable laws, regulations, grant provisions, the Corporation's State
   Administrative Standards Tool, and other information to gain an understanding of legal,
   statutory and programmatic requirements;

    reviewing OMB Circular A- 133 reports and current program year grant agreements for the
    Commission;

    obtaining information from Commission management to complete flowcharts documenting
    the hierarchy of AmeriCorps grant funding for program years 1994-1995 through 1999-
    2000; and

    performing procedures to achieve the objectives detailed in Appendix B to assess the
    Commission's internal controls, selection of subgrantees, administration of grant funds, and
    monitoring of grants including internal controls over service hours and performance
    accomplishment reporting.

As part of the procedures performed, we documented and tested internal controls in place at the
Commission using inquiries, observations, and examination of a limited sample of source
documents. Finally, we summarized the results of our work to develop the findings and
recommendations presented in this report. We discussed all findings with Commission
management during an exit conference on October 26,2000. Subsequent to that date, we
communicated with the commission to clarify and resolve certain matters related to our
preliminary findings and to obtain additional information to finalize our report.

Our procedures were performed in accordance with Government Auditing Standards issued by
the Comptroller General of the United States. We were not engaged to, and did not, perform an
audit of any financial statements, and the procedures described above were not sufficient to
express an opinion on the controls at the Commission, or on its compliance with applicable laws,
regulations, contracts and grants. Accordingly, we do not express an opinion on any such
financial statements, or on the Commission's controls or compliance. Had we performed
additional procedures, other matters might have come to our attention that would have been
reported to you.

We provided a draft of this report to the Commission and the Corporation. The Commission's
and Corporation's responses to our findings and recommendations are included as Appendix C
and D respectively. We have revised the language in the finding " Documentation of Financial
and Grant Management Procedures and Controls" identified on page 8, and revised our
recommendation to the finding "Review of OMB Circular A-133 Audit Reports and Follow Up
mm
on Deficiencies Identified" provided on page 10 based on the Commission's response. We
continue to believe all other Findings and Recommendations should remain as presented in our
draft report. Accordingly, no additional changes were made to this report.

We would also like to respond to the Commission's concerns regarding the staff assigned to this
engagement. The staff assigned were individuals with appropriate qualifications, who conducted
the assignment in a professional manner, notwithstanding the lack of professional courtesy and
cooperation that was expected from certain Commission staff. All staff work was subject to a
detailed management review for compliance with firm and professional standards.
Findings and Recommendations

Selecting Subgrantees

According to 45 CFR Section 2550.80(b)(l), "Each State must administer a competitive process
to select national service programs to be included in any application to the Corporation for
funding."

The Commission administers an open, competitive process to select national service subgrantees.
The Commission advertises funding availability through mailing lists, newspapers and
newsletters. In addition, selection officials sign conflict of interest statements annually, receive
an instruction package, and uses a standard form to evaluate each applicant. However, we
identified the following areas for improvement during the selection process.

        Signed Conflict of Interest Statements

Due to a lack of documentation for all program years reviewed, we were unable to confirm
whether the Commission's selection officials (i.e., Commission Members and Peer Reviewers)
annually certified that they have no conflict of interest. 45 CFR Section 2550.80(b)(l), Pre-
selection of Subtitle C Programs and Preparation of Application to the Corporation, requires
state entities to administer a competitive process to select national service programs to be
included in any application to the Corporation for funding. One way to help ensure a
competitive process is to require selection officials to annually certify in writing that they have
no conflicts of interest. No recommendation is considered necessary at this time because the
Commission revised its procedures beginning with program year 2000-2001 to include retention
of signed conflict of interest statements.

        Assessment of an Applicant's Financial Management System

Due to a lack of documentation for seven of the ten applicants reviewed, we were unable to
determine whether the Commission consistently followed its procedures prior to program year
1999-2000 to assess whether a potential subgrantee had a financial management system which
provides adequate accounting for allowable and unallowable costs, documentation of
expenditures, allocation of costs and cash management. Office and Management Budget
Circular A-102, Grants and Cooperative Agreements with State and Local Governments, as
revised, prescribes the need for assessing the adequacy of an applicant's financial management
system, by relying on readily available sources of information, such as audit reports, to the
maximum extent possible. It also prescribes that if additional information is necessary to assure
prudent management of funds, it shall be obtained from the applicant or from an on-site review.
No recommendation is considered necessary at this time because the Commission revised its
procedures to include documentation and retention of its evaluation of applicants' financial
management systems beginning with program year 1999-2000.
       Assessment of an Applicant 's Past Experience

Due to a lack of documentation, we were unable to determine whether the procedures followed
by the Commission for all program years reviewed included a process to assess the potential
subgrantee's past experience. The Commission documents its assessment on score sheets during
the selection process; however, completed score sheets were not provided for eight of the ten
applicants reviewed. 45 CFR Section 2522.410(b)(2), Organizational Capacity, prescribes the
basis upon which the Commission is required to consider the capacity of an organization to carry
out the program, which includes consideration of the past experience of an organization or
program in addition to other factors. No recommendation is considered necessary at this time
because the Commission revised its procedures to include documentation and retention of its
assessment of applicants' past experience beginning with program year 2000-2001.

Administering Grant Funds

As part of the grant administration process, "Grantees are responsible for managing the day-to-
day operations of grant and subgrant supported activities. Grantees must monitor grant and
subgrant supported activities to assure compliance with applicable Federal requirements and that
performance goals are being achieved. Grantee monitoring must cover each program, function
or activity" (45 CFR Section 2541.400(a)).

The Commission has developed and implemented procedures that are intended to provide
reasonable assurance that grant funds received from the Corporation are properly administered.
Procedures are in place to manage cash draw downs and disbursements to subgrantees, made by
the Department of Higher Education since 1994 as the Commission's fiscal agent. The
Commission's personnel have adequate skills and experience to manage and administer
Corporation grant funds. However, we identified the following areas for improvement within the
grant administration process.

        Procedures and Controls over Timeliness, Accuracy and Validity of Financial Status
        Reports (FSRs)

Out of seven subgrantee FSRs and five Commission FSRs reviewed, six subgrantee FSRs and
three Commission FSRs respectively were submitted late. Unexplained differences were noted
in Program Years 1996-1997, 1997-1998, and 1998-1999, between amounts reported on the
subgrantee FSRs and included on the Commission's aggregated FSRs for the same period. The
differences ranged from $337 to $152,846. Additionally, no evidence exists to determine
whether the Commission reviews documentation supporting the subgrantee FSRs, or whether
matching amounts are reviewed as part of procedures performed during FSR review or during
site visits. In 1999, the Commission contracted with an independent accounting firm to assist in
determining the validity of information reported by the subgrantees. Four subgrantees have been
reviewed to date and reviews of two subgrantees are in progress. However, these reviews do not
encompass all of the years that Commission funds were received.

AmeriCorps provisions 16 (a) prescribe that Grantees such as the Commission should set
subgrantee reporting requirements consistent w ~ t htheir need for timely and accurate reports.
The subgrantee FSRs are due 15 days after the quarter ends. OMB Circular A-133 Compliance
Supplement, Part 6 - Internal Control, suggests that control activities should include supervisory
Mm
revlew of reports to assure accuracy and completeness of data and information included in the
reports. In addition, it also recommends that monitoring activities should include periodic
comparison of reports to supporting records.


        Documentation of Financial and Grant Management Procedures and Controls

The Department of Higher Education's written polices and procedures for financial management,
grant admin~stration,evaluation, and monitoring processes do not include additional guidelines
specific to the Commission, to ensure consistent and appropriate administrative and financial
oversight of the Commission's direct expenditures and those of its subgrantees. OMB Circular
A- 133 Compliance Supplement, Part 6 -Internal Control, suggests that clearly written operating
policies and procedures should form part of the Commission's control activity to help ensure
management's directives are carried out.

        Use of Web Based Reporting System

We determined that the Commission has not utilized the Web Based Reporting System (WBRS)
to produce FSRs. The Commission expects to automate the preparation of FSRs through WBRS
during program year 2000-2001.

        Recommendations

We recommend the Commission focus on measures for improving the effectiveness of its grant
administering process as follows:

        Develop and implement procedures to withhold payments to subgrantees when they fail
        to submit required information and reports (e.g., matching funds information, FSRs,
        program progress reports) by the specified deadlines, and to perform a comprehensive
        review of FSRs submitted by subgrantees as well as those prepared by the Commission.

        Consider developing a checklist to be used by the reviewer to provide reasonable
        assurance that the respective match amounts have been met, all required information has
        been reported and agrees to supporting documentation, and is verified for compliance
        with grant agreements. The completed checklist could then be submitted to a second
        person for review and approval. Such a procedure would enhance the review and
        monitoring procedures associated with reporting, serve as a reminder for communicating
        instances of noncompliance to subgrantees as soon as they are identified, and for
        following up to ensure that corrective actions have been taken.

        Review the population of subgrantees subject to review by the independent accounting
        firm engaged to monitor the fiscal activities of subgrantees to ensure it is complete.
        Further, the Commission should ensure that these reviews are conducted at least once a
        year, and that the reports resulting from the reviews are immediately reviewed by the
        Commission for follow up on any deficiencies identified.

        Emphasize during training sessions and site visits, the importance of submitting the
        required information and reports timely.
mfl
        Develop written procedures for the specific financ~aland grant related activities to be
        performed by the Comm~ssionon a daily basis. These pol~ciesand procedures should
        mclude an ~dent~fication
                               of the followmg:

                     Subject matter
                     Source (identification of key documents)
                     Identification of responsible official(s)
                     Process
                 r   Related internal controls in place
                 0   Timelines (for review and reporting)
                     Sample documents
                     Requirements for the retention of documents
                     Filing requirements

         Once these procedures have been developed, they should be immediately implemented.

         Utilize WBRS to prepare FSRs, in order to minimize the manual processing that is
         currently necessary.

 Evaluating and Monitoring Subgrantees

 As noted above, the Commission is responsible for monitoring subgrantee supported activities to
 assure compliance with applicable Federal requirements and that performance goals are being
 achieved. The Commission has established controls to evaluate and monitor subgrantees, which
 include reviewing program and financial reports and scheduling site visits for each subgrantee
 during the grant period. Commission personnel use a standard site visit report form to document
 results of each visit, and the Commission notifies the subgrantees of the results of these site
 visits, including strengths, weaknesses, concerns, recommendations, and any necessary follow-
 up requirements.

 In addition, the Commission evaluates program accomplishments reported by the subgrantees.
 The Commission uses a standard form to compile program objectives which were originally
 stated in the grant application. By establishing the objectives in this format and sharing it with
 the subgrantees at the beginning of the program year, it is clear how the program will be
 evaluated and what types of documentation must be maintained. Two times per year, the
 Commission requires that the programs address their accomplishments towards meeting the
 stated objectives, citing both numerical and other informational data. However, we identified the
 following areas for improvement related to the evaluation and monitoring of subgrantees.

         Review of OMB Circular A-133 Audit Reports and Follow Up on Deficiencies Identified

 The Single Audit Act, as amended in 1996, requires nonfederal entities expending $300,000 or
 more in Federal awards in a year to have audits performed in accordance with OMB Circular A-
 133. OMB Circular A-133 requires a grantee, such as the Commission, to be responsible for
 ensuring that required audits are performed and to ensure that the subgrantees take prompt
 corrective actions on any findings. OMB Circular A- 133 Compliance Supplement, Part 6 -
 Internal Control, suggests that review of and follow-up on subgrantees' audit reports is a key
 component of a program to monitor subgrantees' compliance with federal grant requirements.
Mm
However, the Commission has not implemented an adequate process for obtaining and rewewing
OMB Circular A-133 audit reports for its subgrantees and following up on corrective actions
taken by subgrantees on reported findings. The Commission does not consistently require its
subgrantees to submit OMB Circular A-133 or other audit reports, if applicable, and the
Commission does not routinely review such reports to determine whether the auditors have
identified control weaknesses or instances of noncompliance related to the AmeriCorps program.
Additionally, the Commission does not consistently follow up on corrective actions to be taken.
As a result, control weaknesses or instances of material noncompliance related to the
AmeriCorps program of which the Commission is not aware may exist and may not be corrected.

       Adequacy of Site Visit Procedures

Due to the lack of documentation supporting procedures conducted during site visits for all
program years, we were unable to determine whether the Commission evaIuated/reviewed
subgrantee financial management systems, and, records to support grant expenditures.
Additionally, we were unable to determine what procedures were conducted by the Commission
during site visits to review AmeriCorps member timesheets, eligibility, living allowances,
service hours, and member's awareness to prohibited activities. According to OMB Circular A-
133, the Commission is required to monitor the activities of subrecipients as necessary to ensure
that Federal awards are used for authorized purposes in compliance with laws and regulations,
and the provisions of grant agreements. The Commission's 2000-2001 standard site visit form
(the AmeriCorps State Monitoring Tool) which has been developed and is due for
implementation during the program year, provides guidance with respect to these procedures.
However, we noted that it did not include procedures for evaluators to review and verify amounts
reported by subgrantees, and to review and assess subgrantee financial management systems.

        Recommendations

We recommend the Commission focus on measures for improving the effectiveness of its
evaluation and monitoring of subgrantees as follows:

        Improve current procedures for obtaining OMB Circular A- 133 audit reports from its
        subgrantees and for following up to ensure that timely corrective actions were taken on
        audit findings that have been identified.

        Add procedures to the 2000-2001 AmeriCorps State Monitoring Tool to instruct the
        evaluator to perform such tasks as: (i) verifying match amounts reported on FSRs to
        supporting documents; (ii) agreeing grant expenditures reported on FSRs to supporting
        documents to verify the existence and allowability of costs; (iii) agreeing amounts
        reported on FSRs to the general ledger; and (iv) reviewing and assessing the adequacy of
        the subgrantee's financial policies and procedures. Additionally, instructions should
        clearly require evaluators to document the specific work done, and the basis used to
        select items tested.
This report is intended solely for the information and use of the Office of the Inspector General,
the management of the Corporation for National and Community Service, the management of the
Connecticut Commission on National and Community Service, and the United States Congress
and is not intended to be and should not be used by anyone other than these specified parties.
                                          Commission Funding                          Appendix A

         The table below and the flowcharts on the following pages depict the Commission's funding
         over the past six program years.


Funding Source
and Type                       1994-95         1995-96       1996-97       1997-98        1998-99

CNS Formula
 Grant Funds

CNS Competitive
 Grant Funds                  1,934,586      2,660,590      2,460,604     2,421,123     2,3 16,702

America Reads                                                                             275,220

Community Based Learn
and Serve

Promise Fellow Funds                                                                       76,800

Make A Difference Day

PDAT Funds                      75,000          87,550       120,650        151,200       118,649

Administration Funds           219,764         300,266       261,979        162,728       203,905

State Matching Funds            56,249          61,411       199,789        173,996       138,581
                                                                            Appendix A


                            Commission Funding

                Corporation for National and Community Service

Funding to the Connecticut Commission on National and Community Service
                              (1994-1995)




      Americorps                      PDAT                 Administrative
      Competitive                     Funds                   Funds
        Funds                        $75,000                 $219,764
      $1,934,586

        Match                         Match                    Match
         $0                            $0                     $56,249




          v                            v                         v
           Total CNS Funds Retained by the Commission $294,764

                    Total Commission Matching Funds $56,249

              Total CNS Funds Awarded to Subgrantees $1,934,586



                                       +
                                   Americorps
                                   Competitive
                                     Funds
                                   $1,934,586

                                      Match
                                     $998,650


                                    # of Subs:4




                                       A.2
                                                                                             Appendix A


                                         Commission Funding

                    Corporation for National and Community Service

    Funding to the Connecticut Commission on National and Community Service
                                  (1995-1996)




            Americorps             Americorps            PDAT               Administrative
             Formula               Competitive           Funds                 Funds
              Funds                  Funds              $87,550               $300,266
             $827,244              $2,660,590

              Match                      Match          Match                   Match
               $0                         $0             $0                    $61,411




                v                         v               v                       v
               Total CNS Funds Retained by the Commission $387,816

                         Total Commission Matching Funds $6 1,411

                 Total CNS Funds Awarded to Subgrantees $3,487,834

I




                               v                                  v
                           Americorps                         Americorps
                            Formula                           Competitive
                             Funds                              Funds
                            $827,244                          $2,660,590

                             Match                              Match
                            $390,795                          $1,472,253


                           # of Subs:2                        # of Subs:4
                                                                                   Appendix A


                              Commission Funding

                 Corporation for National and Community Service

Funding to the Connecticut Commission on National and Community Service
                              (1996-1997)




                                                             -



       Americorps               Americorps        PDAT            Administrative
        Formula                 Competitive       Funds              Funds
         Funds                    Funds          $120,650           $261,979
        $755,445                $2,460,604

         Match                        Match        Match             Match
          $0                           $0           $0              $199,789




           v                           v            v                   v
            Total CNS Funds Retained by the Commission $382,629

                    Total Commission Matching Funds $199,789

               Total CNS Funds Awarded to Subgrantees $3,216,049



                            *
                        Americorps
                         Formula                   Competitive
                          Funds                      Funds
                         $755,445                  $2,460,604

                          Match                       Match
                         $242,178                   $1,957,900


                        # of Subs:2                 # of Subs:4
                                                                                     Appendix A


                                Commission Funding

                Corporation for National and Community Service

Funding to the Connecticut Commission on National and Community Service
                              (1997-1998)




                                                                    I

      Americorps          Americorps        PDAT                    idministrative
       Formula            Competitive       Funds                      Funds
        Funds               Funds          $151,200                   $162,728
       $910,599           $2,421,123

        Match                Match          Match                      Match
         $0                   $0             $0                       $173,996




          v                    v              *                         *
           Total CNS Funds Retained by the Commission $313,928

                   Total Commission Matching Funds $173,996

              Total CNS Funds Awarded to Subgrantees $3,33 1,722




                      Americorps                      Americorps
                       Formula                        Competitive
                        Funds                           Funds
                       $910,599                       $2,421,123

                        Match                           Match
                       $583,808                       $2,309,970


                       # of Subs:3                    # of Subs:4
                                                                                     Appendix A


                                       Commission Funding

                       Corporation for National and Community Service

  Funding to the Connecticut Commission on National and Community Service
                                (1998-1999)




II                                                                              I
Americorps         Americorps      Leam and    America    Promise    PDAT       idministrative
 Formula           Competitive                  Reads     Fellows    Funds         Funds
  Funds              Funds          Funds      $275,220   $76,800   $1 18,649     $203,905
$1,181,063         $2,3 16,702     $1 13,995

  Match              Match          Match       Match     Match      Match         Match
   $0                 $0                         $0        $0          $0         $138,581




                                                          T
                   Total CNS Funds Retained by the Commission $322,554

                             Total Commission Matching Funds $138,58 1

                     Total CNS Funds Awarded to Subgrantees $3,963,780




    Americorps
     Formula
      Funds
    $1,181,063

       Match
      $610,408


     # of Subs:4
                                                                                                        Appendix A


                                         Commission Funding

                        Corporation for National and Community Service

   Funding to the Connecticut Commission on National and Community Service
                                 (1999-2000)




                                                               I
Americorps                   Leam and         Make a           Promise                         idministrative
 Formula     Competitive                     Difference        Fellows           Funds            Funds
  Funds        Funds           Funds            Day            $58,018          $107,796         $195,939
 $973,087    $1,468,118       $110,105        $2,000

  Match         Match         Match           Match            Match               Match           Match
   $0                                          $0               $0                                $65.534




7                                                              T
                  Total CNS Funds Retained by the Commission $303,735

                           Total Commission Matching Funds $65,534

                     Total CNS Funds Awarded to Subgrantees $2,611,328



                 v                  v                     v                 v                   v
             Americorps        Americorps          Learn and             Promise              Make a
              Formula          Competitive           Serve               Fellows           Difference Day
               Funds             Funds              Funds                $58,018               $2,000
              $973,087         $1,468,1 18         $110,105




             1 11 11 11 11 1
               Match              Match               Match                Match               Match
              $547,369          $2,456,962             $0                   $0                  $0


             #ofSubs:3          #ofSubs:3          #ofSubs:l             #ofSubs:l          #ofSubs:l
                          Detailed Engagement Objectives
                                 and Methodology                                  Appendix B

Internal Controls

Our objective was to make a preliminary assessment of the adequacy of the Commission's
financial systems and documentation maintained by the Commission to provide reasonable
assurance that transactions are properly recorded and accounted for to: (1) permit the preparation
of reliable financial statements and Federal reports; (2) maintain accountability over assets; and
(3) demonstrate compliance with laws, regulations, and other compliance requirements.

In order to achieve the above objective, we identified the compliance requirements with a direct
and material effect on the Commission's AmeriCorps grant program, as follows: activities
allowed or unallowed and allowable costs; eligibility; matching; period of availability of
Corporation funds; suspension and debarment; subrecipient monitoring; and reporting by the
Commission to the Corporation. We then interviewed key Commission personnel to assess the
Commission's controls surrounding these requirements.

Selecting Subgrantees

Our objectives were to make a preliminary assessment:

    of the adequacy of the systems and controls utilized by the Commission to select national
    service subgrantees to be included in an application to the Corporation;

    as to whether the Commission evaluated the adequacy of potential subgrantee financial
    systems and controls in place to administer a Federal grant program prior to making the
    award to the subgrantees; and

    as to whether Commission involvement in the application process involved any actual or
    apparent conflict of interest.

In order to achieve the above objectives, we interviewed key Commission management
personnel and documented procedures performed by the Commission during the pre-award
financial and programmatic risk assessment of potential subgrantees. We also reviewed
documentation to determine if conflict of interest forms for each subgrantee applicant tested
were signed by selection officials annually and maintained by the Commission.

Administering Grant Funds

Our objectives were to:

    make a preliminary assessment of the adequacy of the systems and controls utilized by the
    Commission to oversee and monitor the performance and progress of funded subgrantees;

    make a preliminary assessment as to whether the Commission's organizational structure and
    staffing level and skill mix are conducive to effective grant administration;
                          Detailed Engagement Objectives
                                 and Methodology                                 Appendix B

   make a preliminary assessment as to whether the Commission provided adequate guidance to
   subgrantees related to maintenance of financial systems, records, supporting documentation,
   and reporting of subgrantee activity;

   make a preliminary assessment of the adequacy of financial systems and documentation
   maintained by the Commission to support oversight of subgrantees and required reporting to
   the Corporation (including Financial Status Reports, progress reports, enrollment and exit
   forms, and change of status forms); and

    determine whether the Commission has procedures in place to verify the accuracy and
    timeliness of reports submitted by the subgrantees.

In order to achieve the above objectives, we reviewed Financial Status Reports and progress
reports submitted by subgrantees, as well as Financial Status Reports submitted by the
Commission to the Corporation, to preliminarily assess the accuracy of submitted Financial
Status Reports and progress reports. We also preliminarily assessed whether the Commission's
implementation of the Web Based Reporting System (WBRS) had enhanced the grant
administration process.

Evaluating and Monitoring Subgrantees

Our objectives were to:

    make a preliminary assessment of the adequacy of the systems and controls utilized by the
    Commission, in conjunction with the Corporation, to implement a comprehensive, non-
    duplicative evaluation and monitoring process for their subgrantees;

    determine whether the Commission has an established subgrantee site visit program in place
    and make a preliminary assessment of the effectiveness of its design in achieving monitoring
    objectives;

    make a preliminary assessment of the adequacy of the Commission's procedures used to
    assess subgrantee compliance with Corporation regulations (e.g., those governing eligibility
    of Members, service hour reporting, prohibited activities, payment of living allowances to
    Members and allowability of costs incurred and claimed under the grants by subgrantees
    including reported match);

    make a preliminary assessment of the adequacy of the Commission's procedures for
    obtaining, reviewing and following up on findings included in the subgrantee OMB Circular
    A- 133 audit reports, where applicable;

    determine whether program goals are established and results are reported and compared to
    these goals; and

    make a preliminary assessment of the adequacy of the procedures in place to evaluate
    whether subgrantees are achieving their intended purpose.
                         Detailed Engagement Objectives
                                and Methodology                               Appendix B

In order to achieve the above objectives, we documented the procedures performed by the
Commission to evaluate and monitor individual subgrantees. In addition, we judgmentally
selected subgrantees and obtained the Commission's documentation for site visits. We reviewed
the documentation to preliminarily assess the adequacy of the procedures performed by the
Commission to assess financial and programmatic compliance and related controls at the sites.
We also determined whether the Commission received and reviewed OMB Circular A-133 audit
reports from subgrantees.
                  Connecticut Commission
                  on National and Community Service
                   & i i / ~ mP   3yson, Chair                                         Appendix C



March 19, 200 1


Luise S. Jordan
Inspector General
Office of Inspector General
Corporation for National Service
 120 1 New York Avenue, NW
Washington, D.C. 20525

Dear Ms. Jordan:

Enclosed please find the response to the draft report of the Connecticut Commission for
National & Community Service issued by your office dated February 22, 200 1

While I feel it necessary to respond to the draft report as issued, I also feel it necessary to
convey my concern with your office over the lack of familiarity with AmeriCorps and
National Service which was painfully obvious by those personnel chosen to conduct this
assessment. Of the two auditors assigned to this office in the first of the two weeks of the
engagement, one was celebrating her first audit assignment. The more senior admitted to
our staff she was not familiar with the FSR269A form and would like to see what a
sample looked like before starting. Our staff had also spent considerable time and effort
compiling requested documentation and supplying it to them, only to be told that they
had not had time to review it before coming to the audit site and would need to begin
there. Given the level of expertise involved by the audit personnel and the two week's
time budgeted to complete the review, I would feel safe in saying it was not adequate.

Another area of concern is the negative tone of the Pre-audit Draft Report. The content
has been judgmentally modified from the final Issues Fact Sheet that was provided to
Department of Higher Education personnel by KPMG in good faith. Two examples
follow:

 Prelirniriary Finding #1

Issues Fact Sheet
"7he I)c.l,nrlnietll of Higher Ed~rcatiotl'swi.itteupolicies a t d yroced~rresfor,fitlat~cial
ntmtrgeinetit, p r t r t adniiriislrntiotl, evcrlrmtiotl, aridntotritoi4itigprocesses do tiof ir~clr~de
nditiorl~rlgrr idelirres spec ~ f i cto the Chnm~i.ssiotr."

Pre-audit Draft Report
 "Writlerr policies trtlJpi.occ.~irli.e.s do tlot exist.for /asks cotldzrcted by ('oniniissiot~
/)or.sotltielwho are i~syorisihle. f o r . /he ndttritiisfrntioti and accortrrtitrg of grcrtrt,firr?ds"



                                                     C. 1

                                                 -     -
            Connect~cutDepartment of H ~ g h e rEducat~on 61 Woodland Street Hartford, CT 06105-2326
                     Telephone: 860-947-1827 Fax: 860-947-1310 * www.ccncs.commnet.edu
                                                                                                          --
The following comments are in response to the draft pre-audit report provided to the
Connecticut Department of Higher Education as the administrative house for the
Connecticut Commission for National & Community Service.




Draft Page 5

Sigrreu' C'or~fl~ct
                 of Irrterest Staten~erits

Since the inception of the Connecticut Commission for National & Communit:y Service,
all ~ o m m i s s i d nmembers have been required to sign a conflict of interest statement. For
the last two years, not only members of the Commission have signed these forms but also
any peer reviewers utilized by the Commission in selecting sub-grantees. Commission
members now sign the form twice to satisfy Corporation for National Service directives.




As stated in the report, procedures have been in place since 1999-2000 for assessing
applicants' financial management systems prior to awards being made. This procedure
involves reviewing an applicant's prior year audit(s), reviewing any audit findings with
the applicant, and insuring through interviews whether the applicant has qualified
personnel in place to manage federal grant fbnds.

Assessmerrt of arm Aj)plicarmt's Past l%eriermce

The score sheets referred to in this assessment have actually been in place beginning the
year 1 999-2000, not 2000-200 1



Draft Page 6


Procedrrres atid Controls over Timel~riess,Accrrracy, arid Valid@ of Financial Statrrs
Reports (FSRs)

Beginning in the year 1997, the Commission required sub-grantees to submit their
individual FSRs to the Commission by the 15'~of the month following the end of the
preceding quarter. Some FSRs from grantees were submitted after this arbitrary date, hut
drd riot r.e.srilt rn FSRs berrmg srrbmrtteu' late to the C'oryor-atrori,forNatroml Ser19rce. This
was a point of contention throughout the pre-audit period. Prior to 1997, no requirement
existed other than the federal grant requirement of FSRs being submitted to the
Corporation for National Service 30 days following the quarter. To our knowledge, at no
time did the examiners check with the Corporation to see if in fact FSRs were submitted
late.

Each month sub-grantees are required to submit to the Commission an expense report and
cash request which details the expenses incurred by sub-grantees as well as cash received
and a monthly reconciliation of how that cash was spent. This has been a requirement of
the Connecticut Commission since 1995. The amounts reported on these forms are
matched to the amounts reported by the sub-grantees on individual FSRs. In many
instances there is documentation to show adjustments being made, correspondence
between the Commission staff and sub-grantee, and revised FSRs to show this indeed
happened and was and is an on-going process. In addition to these reports being
reviewed each month, the Connecticut Commission, rrtilizitig stntefirtrd~tigtro/,federal
frrndit~g,engages a private accounting firm to review and actually document the expenses
reported by all sub-grantees. This is for all sub-grantees, not a sampling. This is well
beyond what is necessary to satisfy grant requirements, and in our mind, would show the
level of commitment to grant stewardship exercised by the Connecticut Commission.

All of this information was available to the audit team, and was explained to them, but is
not reflected in the draft report.


Draft Page 7




The Department of Higher Education (DHE) maintains detailed written Financial and
Grant Management procedures that are based on state and federal regulations and
controls. The Commission, which is under DHE oversight, operates under these policies
and procedures for appropriate administrative and financial oversight of its direct
expenditures and those of its sub-grantees. However, DHE's current procedures do not
define specific financial and grant related activities to be performed by Commission
personnel on a daily basis. A complementary series of detailed Commission personnel
procedures will be developed and brought to the Commission for approval and adoption.


 Ilse of Web Based Reporting System

WBRS system is fblly operational and in use.




    Since 1999, the Personal Services Agreements (PSAs) between the Department of
    Higher Education and AmeriCorps sub-grantees have included language which
    expressly allows the withholding of all payments, other than member stipend and
  benetits, for non-compliance with deadlines. It should be noted a PSA is a contract
  between the State of Connecticut and the Department of Higher Education and the
  sub-grantee. As we have stated and re-stated numerous times, a comprehensive
  review of FSRs is done and has been done in the past.
  We will consider adopting a checklist such as described in this recommendation.
  All sub-grantees are subject to review by the independent accounting firm for all
  years. This is in place and reflected in the PSA between the accounting firm and the
  Department of Higher Education. Again, this information was available to the
  reviewers but was not considered.
  Each new program year, the Commission staff conducts required trainings with all
  sub-grantees, new or continuing, which comprehensively demonstrates to the sub-
  grantee the requirements of both the AmeriCorps grant, A-133, and the State of
  Connecticut.
  As stated previously, these procedures are being developed specificically,fir
  C'omntissior~ st^# and will be presented to the Commission for adoption.
  WBRS is being utilized.


Draft Page 9



   Under DHE's structure this task has been the responsibility of the Department's
   Business Office staff. We believe that our written procedures for obtaining,
   monitoring, and follow-up of sub-grantee audit reports meet the requirements of
   OMB Circular A-133. We acknowledge that the process has not been consistently
   monitored, in part due to extensive workloads. DHE is in the process of assessing its
   fiscal and grant management as a component of an agency organizational review.
   Based on the outcome of the review, we anticipate reassignment of duties.
   Management of the audit monitoring process will be among the priorities of staff
   assignments.
Preliminary Finding #7




I feel strongly that these facts should be considered when viewing this report.

Sincerely yours,




Jane Ciarleylio
Interim Executive Director
Connecticut Commission on National & Community Service




Cc: Honorable William R. Dyson, CCNCS Chair
    Valerie F. Lewis, Commissioner, DHE
    Cheryl Blankenship, Senior Program Oficer, CNS
                                                                 Appendix D
MEMORANDUM


                                                               AmeriCorps National Service   CORPORATION
Date:          March 22. 2001
                                                                                             FOR NATIONAL
To:            Luise Jordan. Inspector

Thru:          Bill Andeqson, Deputy

From:                 '44
               Peter He1 6,Di
                            m m e k c ~ ; ; ' J S t a t e and National

Subject:       Comments on the OIG Draft Report 01 -2 1, Prr-Audit Survey of'the
               Connecticut C'omrnission on National and Community Service


We have reviewed the draft pre-audit survey of the Connecticut Commission on National
and Community Service (the Commission). Based on the results presented in the draft
report we are pleased to note that the Commission:

        +   administers an open, competitive process to select national service
            subgrantees;

        +   has developed adequate control policies and procedures to administer the
            Corporation's grant funds; and

        +   has developed adequate control policies and procedures to evaluate and
            monitor subgrantees.

The report contains 8 findings and recommendations. The Corporation believes that the
matters identified in the draft report are administrative in nature and primarily relate to
the Commission's start up. Since its inception the Commission has worked hard to
improve its operations. In fact, in 1999 the Commission engaged an independent
accounting firm to document the expenses reported by its subgrantees and to monitor
their fiscal activities. All Commission subgrantees are covered by this review process.
regardless of whether they are audited under OMB Circular A-133. In addition, the
Commission has now fully implemented WBRS.

The Corporation agrees the Commission must review and follow up on OMB Circular A-
133 audits that report findings related to its subgrants. The Commission is currently
placed under the oversight of the Connecticut Department on Higher Education (DHE).
DHE is in the process of assessing its fiscal and grant management system. This review
will enhance the Commission's management of the audit monitoring process. However,
the Corporation disagrees with the need to add procedures to the Commission's State    ~     ,                        "
Monitoring Tool. The Corporation advocates a risk-based approach to grantee ~~er~ight.~elephone
                                                                                           202*500



                                                                                              Getting Thin@ Done.
                                                                                              Amencorps. National S ~ M C
                                                                                              Learn and Serve America
                                                                                              National Senior Service Con
under which the specific procedures performed are tailored to the risks a particular
grantee poses based on the Commission's understanding of its subgrantees and other
local factors.

Finally, the section titled Results in Brief includes a recommendation for a full scope
audit of the Commission covering program years 1994 through 2000. The Corporation
does not believe such an audit is necessary. Given the nature of the conditions cited in
the report, the improvements made in the Commission's operations. and the absence of
other indicators of risk at the Commission, the Corporation believes that it would be more
effective for the Commission to address these matters through the State Administrative
Standards Review which are scheduled for the 2002 program year.

cc:    Peg Rosenberry
       Monica Holman
       Mike Kenefick
